 

No.

IN THE SUPREME COURT OF THE UNITED STATES

IRVING ALEXANDER RAMIREZ, Petitioner

STATE OF CALIFORNIA, Respondent

ON PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF CALIFORNIA

CERTIFICATE OF SERVICE

I, Maria Morga, a member of the Bar of this Court, hereby

certify that my business address is 1111 Broadway, Suite 1000, in the
County of Alameda and the City of Oakland, California, Telephone
(510) 267-3300; that on September 13, 2021, I served, pursuant to
Supreme Court Rule 29, one true copy of the MOTION FOR LEAVE
TO PROCEED IN FORMA PAUPERIS and PETITION FOR
WRIT OF CERTIORARI in the above-entitled matter on the

following parties by placing same in an envelope addressed as follows:

 

Irving Alexander Rameriz
#F-82088

CSP-SQ

San Quentin, CA 94974

Elizabeth Winsor Hereford
Deputy Attorney General
Office of the Attorney General
455 Golden Gate Avenue, Ste.
11000

San Francisco, CA 94102-7004
(415) 510-3761

 

Supreme Court of California
Attn: April Boelk

Automatic Appeals Unit
Supervisor

350 McAllister Street, First Floor
San Francisco, CA 94102

(415) 865-7000

 

California Appellate Project
345 California Street, Suite 1400
San Francisco, CA 94104

 

 
Each envelope was then sealed and deposited in the United
States mail at Oakland, California with first class postage thereon
fully prepaid. All persons required to be served have been served.

I declare under penalty of perjury under the laws of the State of
California that the foregoing is true and correct. Signed on
September 18, 2021, at Oakland, California.

 

Supervising Deputy State Public Defender
Counsel of Record for Petitioner
